No. 20A-___
IN THE

Supreme Court of the United States
_______________
DONALD J. TRUMP; THE TRUMP ORGANIZATION, INC.; TRUMP
ORGANIZATION LLC; THE TRUMP CORPORATION; DJT HOLDINGS LLC; THE
DONALD J. TRUMP REVOCABLE TRUST; TRUMP OLD POST OFFICE LLC
v.
MAZARS USA, LLP; COMMITTEE ON OVERSIGHT AND REFORM OF THE
U.S. HOUSE OF REPRESENTATIVES
_______________
DONALD J. TRUMP; DONALD J. TRUMP, JR.; ERIC TRUMP; IVANKA TRUMP;
DONALD J. TRUMP REVOCABLE TRUST; TRUMP ORGANIZATION, INC.;
TRUMP ORGANIZATION LLC; DJT HOLDINGS LLC; DJT MANAGING
MEMBER LLC; TRUMP ACQUISITION LLC; TRUMP ACQUISITION, CORP.
v.
DEUTSCHE BANK AG; CAPITAL ONE FINANCIAL CORPORATION;
COMMITTEE ON FINANCIAL SERVICES OF THE U.S. HOUSE OF
REPRESENTATIVES; PERMANENT SELECT COMMITTEE ON
INTELLIGENCE OF THE U.S. HOUSE OF REPRESENTATIVES
_______________
On Writs of Certiorari to the United States Courts of Appeals
for the District of Columbia and Second Circuits
_______________
APPLICATION FOR IMMEDIATE ISSUANCE OF THE JUDGMENTS

_______________

To the Honorable John G. Roberts, Jr., Chief Justice of the United States:
1.

Pursuant to Supreme Court Rule 45, respondent Committees of the

U.S. House of Representatives respectfully request immediate issuance of the
judgments in Trump v. Mazars USA, LLP and Trump v. Deutsche Bank AG, 591
U.S. — (2020) (Nos. 19-715, 19-760).

2.

In April 2019, the Committee on Oversight and Reform issued a

subpoena to the President’s personal accounting firm, Mazars USA, LLP. See slip
op. at 4. The Committee sought documents concerning the finances of the President
and related entities pursuant to its legislative purpose in investigating the accuracy
of the President’s financial disclosures, potential conflicts of interest, and
compliance with the Emoluments Clauses. See id. at 4-5.
3.

In April 2019, the Committee on Financial Services issued subpoenas

to Deutsche Bank and Capital One. See id. at 3. The Committee sought financial
information of the President and related persons and entities pursuant to its
legislative purpose in investigating whether current law and banking practices
adequately guard against foreign money laundering and high-risk loans. See id. at
3-4.
4.

In April 2019, the Permanent Select Committee on Intelligence issued

a subpoena to Deutsche Bank. See id. at 4. The Committee sought financial
information of the President and related persons and entities pursuant to its
investigation of foreign financial leverage over President Trump, which will inform
legislative reforms to safeguard national security and the integrity of U.S. elections.
See id.
5.

The Committees’ investigations are ongoing, remain urgent, and have

been impeded by the lack of finality in these litigations, which were initiated in
April 2019.

2

6.

On July 9, 2020, this Court remanded these cases to the courts of

appeals to consider “[s]everal special considerations” that should inform the
analysis of the Committees’ subpoenas. Id. at 18-20.
7.

The Committees have sought expedition at every stage of this

litigation. As this Court has stressed, litigation over Congressional subpoenas
should “be given the most expeditious treatment by district courts,” and “courts of
appeals have a duty to see that [such] litigation is swiftly resolved.” Eastland v.
U.S. Servicemen’s Fund, 421 U.S. 491, 511 n.17 (1975). The rationale for those
directives—that “one branch of Government is being asked to halt the functions of a
coordinate branch,” id.—counsels in favor of dispatch in the resolution of these
cases by the courts below. After all, “[w]ithout information, Congress would be
shooting in the dark, unable to legislate ‘wisely or effectively.’” Slip op. at 11
(quoting McGrain v. Daugherty, 273 U.S. 135, 175 (1927)).
8.

This Court’s judgments would ordinarily issue no earlier than August

3, 2020. See S. Ct. Rule 45.3. Under Rule 45.2 and 45.3, however, a Justice or the
Court may shorten that time. See, e.g., Order, Adoptive Couple v. Baby Girl, No.
13A7 (June 28, 2013) (Alito, J., in chambers); Order, Boumediene v. Bush, No.
07A1011 (June 19, 2008) (Kennedy, J., in chambers); Montana v. Crow Tribe of
Indians, 484 U.S. 1039 (1988) (mem.); City of W. Helena v. Perkins, 459 U.S. 938
(1982) (mem.).
9.

The House’s current term expires on January 3, 2021. Because the

House “is not a continuing body,” Eastland, 421 U.S. at 512, the Committees’

3

window of opportunity to litigate the remands in these cases, then obtain and
review the subpoenaed documents, evaluate their significance to potential or
pending legislation, draft such legislation or amendments, and shepherd that
legislation through the bicameral process diminishes by the day.
10.

Immediate issuance of this Court’s judgments would accelerate the

proceedings in the lower courts so that the Committees may obtain the materials
necessary to undertake any needed legislative reforms as quickly as possible to
address, among other issues, conflicts of interest that threaten to undermine the
Presidency, money-laundering and unsafe lending practices, and foreign
interference in U.S. elections and any other ongoing threats to national security
arising from President Trump’s foreign financial entanglements.
11.

The Committees do not intend to petition for rehearing under Rule

44.1. There is therefore no reason to delay issuance of this Court’s judgments.
12.

Petitioners have stated that they cannot take a position on this

application until they review it and understand its basis. The Committees
respectfully request that the Court expedite the time for petitioners to file any
response.
13.

Respondents Mazars USA, LLP, Deutsche Bank, and Capital One take

no position with respect to this request.
For the foregoing reasons, the Committees respectfully request that the
Court issue its judgments in these cases immediately.

4

Respectfully submitted,
Douglas N. Letter
Counsel of Record
Todd B. Tatelman
Megan Barbero
Josephine Morse
Adam A. Grogg
Jonathan B. Schwartz
OFFICE OF GENERAL COUNSEL
U.S. HOUSE OF REPRESENTATIVES
219 Cannon House Building
Washington, D.C. 20515
(202) 225-9700
douglas.letter@mail.house.gov
Lawrence S. Robbins
Roy T. Englert, Jr.
Alan D. Strasser
Jennifer S. Windom
D. Hunter Smith
Brandon L. Arnold
ROBBINS, RUSSELL, ENGLERT, ORSECK,
UNTEREINER & SAUBER LLP
2000 K Street NW, 4th Floor
Washington, D.C. 20006
(202) 775-4500
lrobbins@robbinsrussell.com

July 13, 2020

5

